  August 22, 2003




Financial Management

Certification of a DoD Payment
for Telecommunications Services
(D-2003-124)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DITCO                 Defense Information Technology Contracting Organization
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
FTS                   Federal Technology Service
GSA                   General Services Administration
SOCN                  Service Order Completion Notice
          Office of the Inspector General of the Department of Defense
Report No. D-2003-124                                                     August 22, 2003
   (Project No D2002FJ-0202)

          Certification of a DoD Payment for Telecommunications
                                  Services

                                 Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for processing invoices and payments on the Federal Telecommunication
Service 2001 contract should read this report. The report discusses the certification of
payment for telecommunications services and associated internal control.

Background. This audit was performed in response to a request by the Office of the
Under Secretary of Defense (Comptroller)/Deputy Chief Financial Officer. The Deputy
Chief Financial Officer requested that we examine the certification of a $16.6 million
lump sum payment for telecommunications services that DoD made in FY 2001, and the
adequacy of internal control over the certification process. Defense Information Systems
Agency (DISA) management stated that they consider the $16.6 million payment a
settlement of a contractor dispute.

Results. The Defense Information Technology Contracting Organization’s
September 2001 certification of a disbursement of $16.6 million for telecommunications
services, made as the result of a settlement agreement, had the effect of avoiding a
number of Federal Acquisition Regulation and DoD Financial Management Regulation
requirements. Specifically, at the direction of DISA management, the Defense
Information Technology Contracting Organization (DITCO) certified the payment
without researching and validating the 17,030 invoices that supported it. At the time of
our audit, the research and validation remained uncompleted. Additionally, DITCO did
not offset the disbursement with $12.8 million of credits the Government had earned. As
a result, at least $6.3 million in overpayments were certified, and there is a risk that
additional overpayments were made on the contract. To correct and improve its process,
DITCO needs to apply year-end credits as they are identified and earned, to certify
payments for charges according to established guidance, and to research the $2.2 million
of invoices that were not researched. DITCO also needs to continue to work with the
telecommunications contractor to obtain timely and accurate service completion notices.
The $1.8 million of remaining disputed invoices past the contractual timeline for
resolution should be taken by DITCO until MCIWorldCom can provide support that the
disputed charges were valid. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. The DISA Acting Inspector General
concurred with the report recommendations. He nonconcurred with the finding and
stated that the report calls into question the authority of the General Services
Administration contracting officer to interpret the contract at issue and to resolve
contractual disputes. He also stated the report overlooks the authority of DISA to make a
settlement payment. We do not question the authority of the GSA contracting officer to
interpret the contract or to resolve disputes. However, although the GSA contracting
officer determined that the service order completion notices were not a prerequisite for
payment, she did not direct DISA to make a lump sum settlement payment. We believe
that DISA management made the settlement payment prematurely without properly
verifying the supporting documentation and recovering approximately $10.1 million in
credits still owed to DoD. We do not question the authority of DISA to enter into a legal
settlement. However, a more favorable settlement payment could have been made had
DISA management taken more time to verify the MCIWorldCom supporting records and
to recover all of the credits owed to DoD. Because the DISA Acting Inspector General
concurred with the recommendations, no further comments are required. See the Finding
section for a summary of the management comments and the Management Comments
section for the complete text of those comments.




                                            ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             3

Finding
     Lump Sum Payment for Federal Technology Services 2001 Invoices    4

Appendixes
     A. Scope and Methodology                                         16
         Prior Coverage                                               17
     B. Report Distribution                                           18

Management Comments
     Defense Information Systems Agency                               21
Background
           This audit was performed in response to a request by the Office of the Under
           Secretary of Defense (Comptroller)/Deputy Chief Financial Officer. The Deputy
           Chief Financial Officer questioned the validity of a Defense Information and
           Technology Contracting Organization (DITCO) certification of a $16.6 million
           payment to MCIWorldCom and the adequacy of the internal control over the
           certification process.

           DITCO Operations. DITCO is a field activity of Defense Information Systems
           Agency (DISA). DITCO provides solutions to information technology
           requirements by supplying networks, software, hardware, security, and
           maintenance. DITCO operates as a working capital fund with a budget of about
           $40 million obtained by charging customers a 2 percent surcharge on about
           $2 billion in contracting services paid for by DITCO customers.

           Federal Telecommunication Service (FTS) 2001 Contract. In January 1999,
           the General Services Administration (GSA) awarded the Federal
           Telecommunication Service 2001 (FTS 2001) contract for use by all Federal
           agencies. The FTS 2001 contract was an 8 year, indefinite-delivery,
           indefinite-quantity contract that included voice, toll free, and video
           teleconferencing services. According to DITCO, DoD pays GSA a 7 percent
           service fee for use of the contract. The $16.6 million payment questioned by the
           Deputy Chief Financial Officer related to invoices on the FTS 2001 contract.
           According to DITCO, the vendors on the contract were MCIWorldCom and
           Sprint. All of the $16.6 million payment related to MCIWorldCom invoices. In
           April 2003 MCIWorldCom announced that it was changing its corporate name to
           MCI.

           DoD Use of FTS 2001. The Assistant Secretary of Defense, Command, Control,
           Communications, and Intelligence∗ directed DoD to use the FTS 2001 contract
           and directed DISA to leverage the DoD sizable inventory and traffic volume to
           take maximum advantage of emerging technologies at the lowest possible cost. In
           addition, DoD Directive 4640.13, “Management of Base and Long-Haul
           Telecommunications Equipment and Services,” assigned responsibility to DISA
           for the acquisition and management of the Department’s long-haul
           telecommunications assets.

           According to DITCO personnel, the DoD annual usage charges on the
           FTS 2001 contract totaled about $150 million. DITCO provided contracting
           services for about $100 million of the $150 million. The $50 million of
           non-DITCO administered service was directly billed and paid by the Military
           Departments.

           FTS 2001 Contractual Requirements. To obtain the lowest rates possible, GSA
           wrote the FTS 2001 contract to allow the vendors to use industry billing practices
           and systems without significant modifications for Federal user requirements.

∗
    In May 2003 the Office was restructured, and became the Office of the Assistant Secretary of Defense for
    Networks and Information Integration, DoD Chief Information Officer.

                                                      1
Because the contract allowed vendors to use their commercial billing systems, the
contract included a provision allowing a customization charge for any additional
information required by the Government.

After completing an order, FTS 2001 vendors are required to provide a Service
Order Completion Notice (SOCN) to Federal customers within 24 hours. The
SOCN should indicate that the service is complete and include billing information
for connecting the service and recurring charges. The contract also requires the
contractor to assign a unique service order number on the notification. The
service order number should also be included either on the invoice or invoice
supporting reports for invoice verification and tracking.

Payment Process. From the beginning of the FTS 2001 contract in 1999, DITCO
requested hard copy invoices from MCIWorldCom because DITCO systems were
not designed to accommodate and pay invoices received from MCIWorldCom’s
commercial billing platforms. As a result, DITCO personnel manually verified
that every invoice matched a valid service order before sending it to the Defense
Finance and Accounting Service (DFAS) for payment. According to DFAS
records, from November 1999 until September 18, 2001, DITCO had received
and paid approximately 149,000 MCIWorldCom invoices totaling $92.7 million
through the normal DITCO process of matching the invoice with the service
order. In October 2001, MCIWorldCom and DITCO began a process to submit
and validate FTS 2001 invoices electronically.

Lump sum Payment. A disagreement between DITCO and MCIWorldCom over
the contractual requirement to provide SOCNs resulted in thousands of unpaid
invoices over the first two years of the contract. Specifically, DITCO believed
that they were not being provided the SOCNs as timely or as accurately as the
contract required and, therefore, could not match the invoice to a service order for
payment purposes. DITCO raised this contract issue shortly after receiving
FTS 2001 billings and worked with MCIWorldCom to correct the situation.
However, an acceptable solution was not reached. In June 2001, GSA determined
that although the lack of accurate and timely SOCNs was a contractual issue,
MCIWorldCom’s non-performance was not significant enough to withhold
payment. After the GSA decision, DISA headquarters entered into discussions
with MCIWorldCom to resolve the disagreement about the backlog of unpaid
invoices. The discussions culminated in an agreement for DISA to pay a
$16.6 million lump sum payment for the backlog of unpaid invoices.

DISA management considered the $16.6 million lump sum payment to be a
settlement of a dispute with MCIWorldCom. As part of the settlement agreement,
DISA management agreed to pay MCIWorldCom $16.6 million to settle charges
on about 17,030 FTS 2001 paper invoices that MCIWorldCom contended were
unpaid and past due. In return for the $16.6 million payment, MCIWorldCom
agreed not to file a formal claim against DISA for the unpaid invoices and not to
pursue prompt payment interest penalties that might be due from DISA. At the
time the payment was made, DISA legal counsel considered it unclear whether
prompt payment interest was payable to MCIWorldCom. Given, however, the
GSA contracting officer’s position that payments were being improperly delayed,
DISA felt Prompt Payment Act penalties were an issue. MCIWorldCom provided
a spreadsheet that listed the invoices that they considered to be unpaid and past

                                     2
    due. As part of the settlement agreement, DISA and MCIWorldCom agreed that
    the 17,030 paper invoices would be subsequently researched to establish the
    validity of the charges on the spreadsheet. DISA also retained the right to request
    adjustments to the payment if overpayments were identified as a result of the
    research.


Objectives
    Our overall audit objective was to determine whether DITCO and related DFAS
    operations are in compliance with the Federal Acquisition Regulation. For this
    part of the audit, we determined whether the DITCO certification of the
    $16.6 million payment to MCIWorldCom was valid and proper under relevant
    guidance. See Appendix A for a discussion of the scope and methodology and for
    prior coverage related to the objectives.




                                         3
           Lump Sum Payment for
           FTS 2001 Invoices
              In accordance with an agreement between DISA headquarters and
              MCI WorldCom, signed by a DISA contracting officer, DITCO
              authorized a disbursement of $16.6 million for telecommunications
              services on September 18, 2001. That agreement avoided a number of
              normal Federal Acquisition Regulation and DoD Financial
              Management Regulation prerequisites for payments. Specifically,
              DITCO did not research and validate 17,030 invoices prior to release
              of funds. At the time of our audit the research and validation remained
              uncompleted. Additionally, DITCO did not offset the disbursement
              amount by $12.8 million of credits it had earned in FYs 2000 and
              2001. These events occurred because DITCO did not:

                  •   recoup credits when they were identified and earned,

                  •   sufficiently review the supporting documentation for the
                      disbursement,

                  •   assign adequate resources for processing FTS 2001 invoices,
                      and

                  •   believe the research was incomplete.

              Also, MCIWorldCom did not comply with the provisions of the
              FTS 2001 contract as they related to disputes and providing service
              completion information. As a result, DITCO certified $6.3 million in
              payments that it subsequently determined to be overpayments, and
              additional overpayments may have been made on the contract.


Payment Requirements
    Federal Acquisition Regulation and DoD Financial Management Regulation
    Requirements. The Federal Acquisition Regulation (FAR) 32.905, “Payment
    Documentation and Process,” requires that invoice payments be based on receipt
    of a proper invoice accompanied by satisfactory contract performance, and that
    invoice payments be supported by an authorization document or receiving report.
    DoD Regulation 7000.14-R, DoD Financial Management Regulation (FMR),
    volume 10, chapter 7, “Prompt Payment Act,” February 1996, requires similar
    documentation prior to disbursement. The FMR requires that, prior to
    disbursement, the payment office should verify that a proper obligation or
    contract exists, that an invoice has been received, and services have been
    provided.




                                       4
Validity of $16.6 Million Lump Sum Payment
    In accordance with an agreement between DISA headquarters and MCI
    WorldCom, signed by a DISA contracting officer, DITCO authorized a
    disbursement of $16.6 million for telecommunications services on September 18,
    2001. That agreement avoided a number of normal FAR and DoD FMR
    prerequisites for payments. Specifically, DITCO did not research and validate
    17,030 invoices prior to release of funds and as of July 21, 2003, the research and
    validation remained uncompleted. Additionally, DITCO did not offset the
    disbursement amount by all of the $12.8 million of credits it had earned.

    DISA management directed the $16.6 million payment to MCIWorldCom after
    discussions with DITCO, DFAS, and GSA personnel in September 2001. DISA
    management considered the payment a settlement of a dispute, and based it on
    information contained in a spreadsheet of FTS 2001 invoices that MCIWorldCom
    provided to DITCO. The spreadsheet contained a list of 17,030 invoices totaling
    $19.3 million that MCIWorldCom asserted had not been paid by DITCO. The
    spreadsheet also contained 11,424 FTS 2001 credit memos totaling about
    $2.7 million. At that time, MCIWorldCom was requesting a net payment of
    $16.6 million for unpaid invoices that were purportedly past due.

    Payment in Accordance With Regulations. Prior to the disbursement, DITCO
    did not verify that the MCIWorldCom charges represented services that were
    actually performed, or that the billing data was accurate as required by
    FAR Section 32.905 and the FMR. Specifically, DITCO did not determine that
    the $16.6 million payment was based on receipt of proper invoices, that there was
    satisfactory contract performance, and that the payment was supported by an
    authorization document or receiving report. In addition, DITCO did not ensure
    that proper documentation was provided to DFAS prior to disbursement. The
    FMR states that prior to disbursement, the payment office should verify that a
    proper obligation or contract exists, that an invoice has been received, and
    services have been provided.
    DITCO and DISA management were aware of the FAR and FMR requirements.
    However, DISA management advised DITCO that the payment should be made
    prior to validating that the invoices were authorized and accurate.
    MCIWorldCom and DITCO management agreed that the invoices could be
    researched later and the charges verified. Additionally, DISA management
    informed DFAS that the invoices would be researched by DITCO later to verify
    that services were provided and the charges were valid.

    To facilitate the payment to MCIWorldCom, DISA management overrode the
    DITCO internal control that would have normally prevented the invalid or
    duplicate payment of invoices. DISA management believed the payment should
    be made quickly, and supported a plan to pay MCIWorldCom without fully
    reviewing the supporting documentation prior to payment.

    DITCO Research of Invoices. Subsequent research and validation efforts
    related to the payment, were not completed at the time of our audit. Specifically,
    as of July 21, 2003, $9.0 million of the charges were valid, $6.3 million were

                                         5
overpayments, $1.8 million are disputed, and the remaining $2.2 million had not
been researched.

In January 2003, based on detailed information obtained from DITCO research
personnel and DFAS Pensacola, we estimated that invoices totaling $16.3 million
had been researched. Of the $16.3 million, $6.6 million were valid charges,
$6.0 million were overpayments, and $3.7 million was still in dispute. At that
time, DITCO considered the research of the payment supporting records complete
except for continuing to track disputed invoices with MCIWorldCom that
remained unresolved. The DITCO comptroller directed that research stop when
the invoices reviewed totaled $16.6 million instead of the $19.3 million of
invoices paid from the MCI spreadsheet (before net revenue credits).

We questioned the DITCO decision to stop researching before all of the
$19.3 million in paid charges were validated or disputed. As a result of this
questioning and subsequent to the issuance of a draft of this report, DITCO stated
that they had made progress in resolving disputed charges and that they had also
researched a portion of the $3.0 million in invoices that remained unresearched as
of January 2003.

We requested that DITCO provide supporting records for the additional invoices
that they had researched since January 2003. We also requested updated
information from DFAS Pensacola on credits that had been obtained by DITCO
since January 2003. As a result of our request, DITCO provided updated detailed
and summary research data.

        DITCO Summary Research Records. The summary records DITCO
provided as of July 21, 2003, indicated $18.0 million had been researched and
$1.3 million had not been researched. However, we consider the summary
records to be less reliable than the detailed supporting records because of the
methodology used by DITCO personnel to accumulate the summary amounts.
Specifically, DITCO personnel stated that the summary researched amounts are
higher than the detailed supporting records because the summary amounts
sometimes include higher invoice amounts than those provided by
MCIWorldCom on the summary spreadsheet used in support of the settlement
payment. DITCO included higher invoice amounts if research personnel actually
researched more charges from the hardcopy invoices than the corresponding
charges on the MCIWorldCom provided spreadsheet. We believe that DITCO
personnel were correct in researching the entire hardcopy invoice amount to
determine valid and invalid charges, however, only the amount originally charged
by MCIWorldCom should have been included in the research summary data.

       DITCO Detailed Research Results as of July 2003. To determine the
amount of the invoices paid as part of the $16.6 million payment that had been
researched, we used the detailed records provided by DITCO and DFAS on
July 21, 2003, because of the associated detail and the methodology used by
DITCO to compile the summary research records. Based on updated detailed
information provided by DITCO and DFAS, we calculated that DITCO had
researched an additional $0.8 million in invoices and resolved $2.0 million of the
open disputes since January 2003. Therefore, as of July 16, 2003, we estimate
that DITCO has researched $17.1 million in paid charges and $2.2 million in paid

                                    6
    charges have not been researched. Therefore, as of July 21, 2003, $9.0 million of
    the charges were valid, $6.3 million were overpayments, $1.8 million are
    disputed, and $2.2 million remain unresearched.

    Year-End Credits. DITCO did not offset the disbursement amount by all of the
    $12.8 million of credits it had earned. Federal agencies using the
    FTS 2001 contract receive year-end credits from MCIWorldCom in years 2
    through 6 of the contract ranging from 15 to 25 percent. The contract requires
    MCIWorldCom to authorize year-end credits based on a percentage of net
    revenue. MCIWorldCom was to begin providing information on credits in July,
    August, and September each fiscal year and then October of the following fiscal
    year. Although the FY 2000 and part of the FY 2001 usage credit amounts were
    known, DITCO was behind in getting the year-end credits due from
    MCIWorldCom. Prior to negotiating and paying MCIWorldCom the
    $16.6 million lump sum payment, DITCO had not taken any of the FY 2000
    credit amount of $5.5 million or the $7.3 million for FY 2001 credit. DITCO
    recouped $2.7 million of the $12.8 million in net revenue credits at the time it
    certified the $16.6 million payment to MCIWorldCom.


Justification and Research of Lump sum Payment
    We believe that the $16.6 million lump sum payment was negotiated prematurely
    and, had additional work been done, a more favorable result could have been
    obtained. For example, DITCO did not recoup year-end credits when they were
    identified and earned, DITCO did not sufficiently review the supporting
    documentation for the disbursement, and DITCO did not assign adequate
    resources to processing FTS 2001 invoices. Additionally, DITCO believed that
    the research was complete, and researching all 17,030 invoices was not
    cost-effective. Also, MCIWorldCom did not comply with the provisions of the
    FTS 2001 contract related to disputes and completion of services.

    Recouping Year-end Credits. Before September 18, 2001, DITCO had not
    recouped all of the $12.8 million in year-end credits earned from MCIWorldCom.
    The credits were based on annual net revenue of FTS 2001 services and were
    provided by MCIWorldCom in accordance with the contract before the
    $16.6 million payment.

    DISA headquarters stated that DITCO delayed taking the credits because of the
    delays in paying FTS 2001 invoices and DISA headquarters did not believe it was
    appropriate to recoup the credits until DITCO began paying invoices faster.

    However, by September 2001, DITCO had made progress paying FTS 2001
    invoices, and was developing an automated means to reduce the amount of paper
    invoices submitted by MCIWorldCom. Additionally, DITCO had made payments
    of at least $92.7 million for FYs 2000 and 2001 FTS 2001 services in which no
    year-end credits had been applied. Therefore, it would have been appropriate for
    DITCO to request that MCI WorldCom offset the $19.3 million in invoices by the
    $12.8 million in credits earned.


                                        7
During FY 2002, DITCO continued to lag behind in taking year-end credits for
FTS 2001 usage. For example, December 2002 was the first month in which
DITCO directed DFAS to begin to apply FY 2002 net revenue credits.

Support for the lump sum payment. DITCO did not sufficiently review the
MCIWorldCom supporting documentation before making the payment.
MCIWorldCom provided a list of invoices to DITCO that included the customer
number, invoice number, and invoice date. MCIWorldCom asserted that this
spreadsheet of invoices included only valid charges that had never been fully or
partially paid and included only DITCO customers.

The spreadsheet included 17,030 invoices totaling $19.3 million. Based on the
agreement signed by DISA and MCIWorldCom in September 2001, DITCO had
five working days to review the MCIWorldCom supporting data. However,
five working days was not enough time to analyze the spreadsheet and identify
the inaccuracies that were later found after DITCO began intensively researching
the individual invoices. DITCO found inaccuracies including invoice amounts
that had been paid and inaccurate and invalid charges.

        Paid Invoices. DITCO research personnel determined that the
MCIWorldCom spreadsheet included invoices that had already had been paid.
DFAS reconciliation data showed that approximately 182 invoices with charges
of $4.4 million had already been paid before the September 18, 2001, lump sum
payment was made. These duplicate payments were subsequently credited back
to DITCO after DITCO disputed them.

        Inaccurate Invoice Amounts. DITCO reconciliation information showed
that many of the invoice amounts listed on the MCIWorldCom spreadsheet were
inaccurate. Specifically, 467 invoices on the MCIWorldCom spreadsheet differed
from the hard copy invoices by $2.1 million. For 329 of the 467 invoices, the
dollar value of the hardcopy invoice amount was greater than the amount listed on
the MCIWorldCom spreadsheet by $2.2 million. According to the DITCO
reconciliation team, the amounts shown on the hard copy invoices were
sometimes greater than the MCIWorldCom spreadsheet because MCIWorldCom
included only the amount owed after accounting for partial payments on the
spreadsheet. For 138 of the 467 invoices, the MCIWorldCom spreadsheet
amounts were more than the corresponding hardcopy invoice amount by
$151,000.

        Invalid Charges. DITCO reconciliation efforts show that the invoice
amounts provided on the MCIWorldCom spreadsheet included invalid charges
totaling more than $1.1 million. These invalid invoices included charges that
applied to non-DITCO customers, inaccurate billing rates, and service not
provided.

Resources for Processing FTS 2001 Invoices. The $16.6 million lump sum
payment was certified for payment prematurely because DITCO did not establish
adequate resources to pay invoices on the FTS 2001 contract upon receipt.
DITCO did not assign sufficient resources to manually process, research, and pay
the volume of invoices delivered.


                                    8
At the end of May 2001, DITCO was behind in processing FTS 2001 invoices.
This occurred, in part, because prior to May 2001 only one accountant had been
assigned to process FTS 2001 invoices for payment.

In June 2001, DITCO assigned a Tiger Team to assist in processing the invoices
and authorized overtime. The Tiger Team was responsible for opening FTS 2001
invoices, entering accounting information into a spreadsheet, and sorting the
invoices in preparation for submission to DFAS for payment.

From June through September 2001, 22 DITCO personnel worked 5,059 hours
processing approximately 76,000 invoices for payment. DFAS records show that
FTS 2001 payments to MCIWorldCom during this time were about $38.0 million.
This amount was significantly more than the $35.4 million paid in the first eight
months of FY 2001.

As of October 2001, DITCO and MCIWorldCom began to implement a project to
terminate the manual submission of invoices. By November 2001,
MCIWorldCom no longer sent hard copy invoices for the majority of FTS 2001
contract work. Electronic invoicing has removed the need for DITCO to open
hardcopy invoices and enter the billing information into a spreadsheet for further
processing.

Completing Research Efforts. Subsequent research efforts related to the
$16.6 million payment were not completed at the time of audit. Specifically,
disputes were not resolved in a timely manner and DITCO had not researched all
of the $19.3 million in invoices.

        Resolving Disputes. The FTS 2001 contract provided procedures for
resolving disputes. MCIWorldCom was required to research and answer disputes
within 30 days when the value of the invoice in dispute was under $10,000.
Disputed invoices valued at greater than $10,000 should be resolved within
60 days. According to DITCO, $1.8 million in disputed charges are past the
resolution date and awaiting action by MCIWorldCom. In addition to contractual
requirements, the agreement signed by DITCO and MCIWorldCom prior to the
$16.6 million payment established that disputes related to the payment would be
resolved in a timely manner.

        DITCO Research of $16.6 million. DITCO made a decision to research
$16.6 million of invoices instead of all of the invoices actually paid that totaled
$19.3 million. DITCO’s research-team personnel stated that the majority of the
invoices not researched were low dollar invoices and it would not be
cost-efficient to spend resources to research the remaining invoices. DITCO
summary research records indicate that the amount that has not been researched is
about $1.3 million. However, based on detailed data provided by DITCO and
DFAS, there are about $2.2 million of invoices not yet researched. Of the
$2.2 million of invoices that have not been researched, DITCO records indicate
that there are at least 692 invoices valued at more than $1,000, totaling more
than$1.6 million.

Service Completion Information. We believe that DITCO was correct initially
in withholding payment, because MCI WorldCom was not providing SOCN

                                     9
information within the time period required by the contract. The GSA contracting
officer came to a different conclusion and DISA management indicated it felt
bound by that decision.

In the months prior to September 2001, DITCO and MCIWorldCom had several
discussions regarding the contractual requirement that MCIWorldCom provide
accurate SOCNs for telecommunications services. DITCO records indicate that
MCIWorldCom was experiencing problems in providing the contractually
required SOCNs that DITCO needed to establish an expected billing amount and
verify that telecommunications services had been provided. Without a SOCN,
DITCO could not readily verify that charges applied to ordered services and that
the invoice amounts were accurate. During the same time period, MCIWorldCom
provided DITCO a letter claiming that accurate and timely SOCN information
was being provided as required.

We performed an analysis of 43 invoices included in the $16.6 million lump sum
payment to determine whether accurate and timely SOCNs were provided. We
also contacted GSA regarding the issue.

        Review of Invoices for SOCN Information. We reviewed 43 invoices
that included valid charges that were part of the $16.6 million payment.
MCIWorldCom had not provided accurate or timely SOCN information for the
billed services on all the invoices. Specifically, twenty service orders did not
have the accurate SOCNs provided to DITCO until after the September 18, 2001,
payment. One out of the 43 service orders invoiced, had an accurate SOCN
provided on time. MCIWorldCom had not provided an accurate or complete
SOCN for 6 of the 43 invoices we reviewed. For the remaining 36 sample
invoices, MCIWorldCom provided accurate SOCNs but the SOCNs were late on
average by 300 days.

        GSA Position. We contacted GSA regarding the DITCO claim that
MCIWorldCom was providing inaccurate and late SOCNs. A GSA representative
stated that he had done some research on SOCNs provided to the Air Force during
April, June, and August of 2002. He selected all Air Force service orders
completed for these months from MCIWorldCom’s database and compared the
dates the SOCNs were provided to the date the service was completed. He did
not test the accuracy of the SOCN information. He determined that the SOCNs
were late 27 percent of the time. The data provided by GSA supported both
DITCO claims that MCIWorldCom was not providing accurate and timely
SOCNs and our analysis of invoices included in the $16.6 million payment
Despite this data, GSA FTS 2001 personnel have concluded that lack of timely or
accurate SOCN information is not a valid reason for late payment of invoices.

        We disagree that the lack of timely and accurate SOCN information is not
a valid reason for late payment of invoices. Service order completion
information, such as date of service and estimated charges, is required by the
FTS 2001 contract as a prerequisite to submitting invoices, and specifically
notifies DITCO that services have been provided. The MCIWorldCom
submission of invoices without first providing accurate and timely SOCN
information raises questions about whether these invoices are proper. It was


                                   10
    reasonable for DITCO to expect MCIWorldCom to provide service order
    completion information prior to disbursing funds for FTS 2001 services.


Overpayments Identified and Potential Overpayments
    The agreement between DISA and MCI anticipated that some of the unresearched
    invoices could be invalid, for one reason or another, and preserved the
    Government’s right to research those invoices and make payment adjustments
    based upon the result. DITCO subsequently determined that it overpaid at least
    $6.3 million to MCIWorldCom and there is a risk of additional overpayments
    related to about $1.8 million of disputed invoices that were paid and about
    $2.2 million in paid invoices that have not been researched. Based on the DITCO
    research results to date, the amount of overpayments still outstanding could be
    substantial.

    Overpayments Identified. DITCO has identified at least $6.3 million in
    overpayments to MCIWorldCom for FTS 2001 invoices. The overpayments
    included duplicate charges on invoices that were already paid, invalid charges
    (such as charges for disconnected services), charges for service prior to the
    effective billing date, and charges for non-DITCO customers (such as the U.S.
    Army Corps of Engineers). Of the $6.3 million in overpayments identified, at
    least $4.9 million (78 percent) duplicated payments made on invoices before the
    September 18, 2001, lump sum payment.

    Potential Overpayments. There is a risk of additional overpayments related to
    $1.8 million of unresolved disputed paid invoices and about $2.2 million in paid
    invoices that have not been researched by DITCO.

            Disputed invoices. Based on the research results to date, DITCO has
    received approximately 37 percent of the researched amount back as credits. A
    significant portion of the $1.8 million of unresolved disputed invoices may also
    represent overpayments to MCIWorldCom. DITCO has grouped the disputed
    charges into categories such as duplicate payment, billing prior to effective
    service date, cancelled order prior to completion, and no match in the system
    found.

            Non-researched invoices. DITCO has not researched about $2.2 million
    of the $19.3 million in paid invoices (before credits) and there is a risk that
    additional overpayments to MCIWorldCom related to these invoices occurred and
    will not be recovered. Based on the $8.1 million ($6.3 million in overpayments
    and $1.8 million in unresolved disputes) out of $17.1 million that was either
    overpaid or disputed, it is reasonable to expect that additional overpayments
    occurred related to the invoices that have not been researched. In addition,
    because DITCO is a reimbursable operation, the proper DITCO customer will not
    be billed accurately for valid charges and the Defense-wide Working Capital
    Fund will not be reimbursed for these charges. Based on the DITCO research
    results to date, the percentage of credits received has been 37 percent.



                                        11
            We believe that it is reasonable to expect that a significant amount of the
    unresearched invoices represent overpayments. Additionally, the approximate
    $2.2 million of invoices not yet researched include high dollar amounts that could
    be researched relatively quickly. For example, of the $2.2 million of invoices not
    yet researched, there are 692 invoices for more than $1,000 that total $1.6 million.
    Based on the time incurred on researching the $17.1 million of invoices, DITCO
    personnel could research these higher dollar invoices in a few months.


Management Comments on the Finding and Audit Response
    DISA took issue with some parts of this report although they concurred with the
    recommendations. Specifically:

    Management Comments on General Issues Regarding the Finding. DISA
    believes that the report calls into question the authority of the GSA contracting
    officer to interpret the FTS 2001 contract and to decide disputes, and discounts
    DISA authority to make a payment as a settlement of a dispute. For these reasons
    DISA recommended that the report not be issued.

    Audit Response. The finding does not call into question the authority of the
    GSA contracting officer to interpret the contract or to decide disputes, although
    we disagree with the GSA preliminary decision that inaccurate and untimely
    SOCNs are not a significant reason to withhold payment until proper invoices are
    submitted by the contractor. While the GSA contracting officer determined that
    the SOCNs were not a prerequisite for payment, she did not direct DISA to make
    a lump sum settlement payment. We agree that DISA is liable for unpaid FTS
    2001 charges that are determined to be valid. However, the settlement payment
    was made prematurely without properly verifying the supporting documentation
    and recovering credits owed to DoD. In addition, the finding does not question
    the authority of DISA to enter into a legal settlement. We specifically discuss the
    events that resulted in the legal settlement in the background of the report. The
    audit report addresses corrective actions related to unresolved issues from a
    settlement payment that occurred almost two years ago. Assistance was needed
    because at the time of the audit, $1.8 million in paid charges were still being
    disputed with MCIWorldCom and about $2.2 million in paid charges had not
    been researched and validated. The recommendations in the report will urge
    DISA management to resolve these long-standing issues and encourage DISA to
    identify and recover additional overpayments.

    Management Comments on Finding Background. DISA management stated
    that the report failed to provide enough background information to introduce the
    dilemma leading up to the settlement payment. DISA stated that the settlement
    resulted after more than a year and a half of negotiations and was concerned that a
    reader of the report could obtain the impression that DISA actions were
    capricious and cavalier.

    DISA also stated that anticipated FTS 2001 services were about $100 million per
    year, and therefore DISA calculated that monthly Accounts Payable should be
    about $8.3 million. In contrast, DISA calculated that the average monthly

                                        12
payment was about $4.5 million. Therefore DISA management believed that they
had a basis to conclude that an Accounts Payable problem existed. In addition,
DISA stated that they were receiving virtually no calls from customers
complaining about service interruption and therefore, the assumption could be
made that FTS 2001 services were being provided and payment was due.

Audit Response. The background and body of the report addresses many of the
DISA concerns and contains sufficient information so that an informed reader can
make an objective conclusion about the appropriateness of the settlement
payment.

We agree with DISA management that comparing monthly billing information
with payments can be a valid tool for generally tracking Accounts Payable.
However, we disagree that summary information should be used to support lump
sum payments for telecommunications services. In addition to overdue payments,
several other factors could account for the discrepancy between billings and
disbursements for telecommunications services, such as billing inaccuracies with
MCIWorldCom, service charges at start-up being lower than they had become by
the time of the lump sum payment, delays in service being switched from the
prior FTS contract, or lower rates and usage than expected.

For financial accounting purposes, Accounts Payable balances are derived from
accounting transactions supported by vendor invoices, and not summary level
estimates or unverified summary invoice lists from contractors. Based on the
results of the DITCO research of the supporting records for the $16.6 million
payment and other FTS 2001 billing issues, we consider DISA management’s use
of MCI billing records to support owed amounts without verification from
DITCO records imprudent. Regarding the lack of customer calls concerning
service interruption, this could indicate that FTS 2001 services had not been
switched over before the lump sum payment was made.

Management Comments on the Applicable Regulations. DISA requested that
the finding section be rewritten because it completely ignores the DISA assertion
that the payment was a settlement agreement and the OIG DoD statement that the
payment does not comply with the FAR, and the DoD FMR should not be cited
because it ignores the DoD Disputes and Appeals policy.

Audit Response. The finding is specific regarding which sections of the FAR
and DoD FMR DISA deviated from in directing the lump sum payment be made.
Specifically, prior to the disbursement, DITCO should have verified that the
MCIWorldCom services were actually performed or that the billing data was
accurate as required by FAR Section 32.905, “Payment Documentation and
Process,” and the DoD FMR volume 10, chapter 7, “Prompt Payment Act.”

The finding does not question the legality of the settlement agreement, but
demonstrates that the payment deviated from certain FAR requirements and was
premature. DISA should have conducted a proper review of the supporting
documentation for the $19.3 million in past due charges and recovered all of the
credits owed to DoD before making payment.

Management Comments on Validity of $16.6 million Lump Sum Payment.

                                   13
    DISA stated that the report ignores the fact that the MCIWorldCom spreadsheet
    was provided in accordance with the settlement agreement as a means of
    providing a reasonable assurance that the payment amount was not inflated and
    had a rational relationship to the amount due on the overdue invoices. In
    addition, DISA believes that there was a reasonable basis at the time, and
    probably a similar basis today, to conclude that the vendor has not been paid
    timely for their services.

    Audit Response. There was very little basis for DISA management to conclude
    that the summary invoice list provided by MCIWorldCom provided reasonable
    support for the payment. DISA management was aware that MCIWorldCom was
    experiencing difficulty in producing accurate FTS 2001 billings, that
    MCIWorldCom had initially requested a larger payment for overdue invoices of
    $33 million. DISA management also had been repeatedly made aware of
    MCIWorldCom billing problems by DITCO personnel. Therefore, it was more
    reasonable to expect DISA management to perform a rigorous review of the
    supporting documentation before making such a large disbursement from the
    working capital fund. In addition, the exhaustive research efforts performed by
    DITCO subsequent to the payment show that valid charges amounted to only
    about $6.6 million of the $16.6 million payment. As discussed in the audit report,
    the research results clearly indicate that the summary invoice list provided by
    MCIWorldCom was inaccurate and was not a reasonable representation of
    overdue FTS 2001 charges.

    Management Comments on Overpayments Identified. DISA requested that
    the section of the finding titled “Over Payments Identified and Potential Over
    Payments” be rewritten because the conclusion that the settlement was improper
    is not substantiated.

    Audit Response. The finding supports a conclusion that DISA made
    overpayments on some of the invoices that were included as part of the settlement
    payment to MCIWorldCom. Specifically, at least $6.3 million was overpaid and
    additional overpayments related to $1.8 million of disputed invoices and
    $2.2 million in unresearched invoices may also have occurred. Existence of
    accounts payable to MCIWorldCom, not covered by the settlement agreement at
    the time of the $16.6 million payment, is a separate matter from the overpayments
    that did occur on the invoices that were included in the settlement agreement.

Recommendations, Management Comments, and Audit
  Response
    We recommend that Director, Defense Information Technology Contracting
    Organization, Defense Information Systems Agency improve the FTS 2001
    payment process. Specifically, we recommend that the Director:

           1. Apply future Federal Technology Services 2001 contract year-end
    credits as they are identified and earned.

    Management Comments. The Defense Information Systems Agency concurred
    with the recommendation, stating that Defense Information Technology
                                        14
Contracting Office will work with Defense Finance and Accounting Service to
apply credits as they are identified.

      2. Pay only valid Federal Technology Services 2001 contract charges
according to the requirements of The Federal Acquisition Regulation 32.905,
“Payment Documentation and Process,” and the DoD Regulation 7000.14-R,
DoD Financial Management Regulation, volume 10, chapter 7, “Prompt
Payment Act,” and do not make any additional lump sum payments on
Federal Technology Services 2001 charges.

Management Comments. The Defense Information Systems Agency concurred
with the recommendation, stating that this payment was a unique one-time action
and they are working to ensure this will not occur in the future. However, they
requested a rewording of the recommendation to included the word “settlement.”

Audit Response. The intent of this recommendation is not to prevent the
Defense Information Systems Agency from entering into another legal settlement.

       3. Continue to research the approximately $2.2 million of invoices
(paid in the lump sum $16.6 million payment) that have not been researched
to identify potential overpayments and require appropriate credit back to
Defense Information Technology Contracting Organization.

Management Comments. The Defense Information Systems Agency concurred
with the recommendation, stating that they have assembled a team of telecom
account managers, contracting officers, finance management staff, and
automation support to reconcile overall FTS 2001 issues.

       4. Continue to work with MCIWorldCom to improve the timeliness
and accuracy of service order completion notices and resolve disputed
invoices related to the $16.6 million payment. Direct that the Defense
Finance and Accounting Service withhold the $1.8 million disputed amount
from current invoices until MCIWorldCom properly resolves the disputed
invoices.

Management Comments. The Defense Information Systems Agency concurred
with the recommendation, stating that Defense Information Technology
Contracting Office has dedicated personnel to work outstanding MCI issues and
to work with Defense Finance and Accounting Service to determine the proper
methodology for withholding the disputed amounts from current invoices.




                                   15
Appendix A. Scope and Methodology
   We reviewed supporting documentation related to a DITCO certification of a
   $16.6 million lump sum payment made to MCIWorldCom on
   September 18, 2001. The supporting documentation included applicable
   FTS 2001 contract clauses, a summary invoice list received from MCIWorldCom,
   and correspondence between GSA, MCIWorldCom, DITCO, and DISA
   concerning possible solutions to FTS 2001 billing problems around the time of
   the payment. We also randomly selected and reviewed service order completion
   notices (SOCNs) related to valid charges included in the $16.6 million lump sum
   payment, obtained DITCO summary and detailed research information for the
   $16.6 million payment as of January 8, 2002, and obtained DFAS detailed support
   of the DITCO overpayments as of January 8, 2003, and July 21, 2003.
   Subsequent to the draft report, we obtained DITCO summary and detailed
   research information for the $16.6 million payment as of July 21, 2003.

   We contacted GSA to discuss and clarify relevant FTS 2001 contract clauses and
   to obtain additional information regarding the circumstances leading up to the
   $16.6 million lump sum payment and whether MCIWorldCom was complying
   with contractual requirements to provide accurate and timely SOCNs. We
   contacted MCIWorldCom to discuss the supporting documentation provided in
   support of the $16.6 million lump sum payment.

   We obtained an understanding of the DITCO FTS 2001 ordering, validation,
   invoice processing, disbursement, and customer billing process. We also obtained
   an understanding of the research methodology implemented by DITCO after
   making the $16.6 million payment.

   We performed this audit from August 2002 through July 2003 in accordance with
   generally accepted government auditing standards.

   We did not review the management control program as it related to processing
   FTS 2001 orders and payments because management controls over payment of
   invoices were circumvented to make the lump sum payment, and part of the
   process has changed since the invoices were received and the payment made. In
   addition, the research performed after the lump sum payment was made is not a
   normal DITCO business process. Not assessing the management control program
   over the current process to order, validate, and pay FTS 2001 invoices did not
   affect our results.

   We did not perform detailed testing on the DITCO supporting invoices and other
   research documentation related to the $16.6 million lump sum payment.
   Specifically, we did not individually review FTS 2001 invoices that DITCO
   determined to include valid charges, disputed charges, or overpayments. To
   verify overpayments and credits received back from MCIWorldCom, we relied on
   detailed DFAS records.

   Use of Computer-Processed Data. To achieve the audit objectives, we relied on
   computer-processed data, accumulated by DITCO research personnel, related to
   the $16.6 million lump sum payment to MCIWorldCom for FTS 2001 services.
                                      16
    Our comparison of summary and detailed DITCO information on overpayments
    and disputed charges and with DFAS credit amounts on applicable FTS 2001
    invoices casts doubt on the data’s validity. However, the differences are not
    significant enough that we believe the opinions, conclusions, and
    recommendations in this report are invalid.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk area.


Prior Coverage
    During the last five years, the General Accounting Office (GAO) has issued one
    report related to the FTS2001 contract payment problems. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov/.


GAO
    GAO Report No. GAO-01-289, “FTS2001: Transition Challenges Jeopardize
    Program Goals,” March 30, 2001




                                       17
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration, DoD Chief
  Information Officer

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service – Pensacola
Director, Defense Information Systems Agency
   Comptroller, Defense Information Systems Agency
   Director, Defense Information and Technology Contracting Organization

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          19
Defense Information Systems Agency Comments




                     21
22
                                                                                   Final Report
                                                                                    Reference




                                                                                   *




* Memorandum is not re-printed because an official copy was not provided by DISA

                                                23
Final Report
 Reference




Revised




               24
25
Final Report
 Reference




Revised




          *




               * Memorandum is not re-printed because an official copy was not provided by DISA

                                                              26
27
28
     Final Report
      Reference




     Revised




     Page 8




     Page 10




     Page 11




29
Final Report
 Reference




Page 13




               30
     Final Report
      Reference




     Page 15




31
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Stuart D. Dunnett
Mark Starinsky
Lisa S. Sherck
Peter G. Bliley
